WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1600

\Sae Han Sheet Co., Ltd. | Eastman Performance Films, LLC
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).

Signature: | Wife .

Date: rigi2t

 

(Type or print) Name Robert William Loftin

© mr. O Ms. ° Mrs. O Miss
Firm |McGuireWoods LLP -
Address (Gateway Plaza, 800 East Canal Street
City & State Richmond, Virginia / a Zip bs21a
Phone 'g04-775-471 5 | Email [loftin@meguirewoods.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Michael S. Kimm
ce:

 
